<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                         TUESDAY, MARCH 1, 2016

                               U.S. Senate,
   Subcommittee of the Committee on Appropriations,
                                            Washington, DC.

    The subcommittee met at 3:06 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Shelley Moore Capito (chairman) 
presiding.
    Present: Senators Capito, Schatz, and Murphy.

          UNITED STATES SENATE SERGEANT AT ARMS AND DOORKEEPER

STATEMENT OF HON. FRANK J. LARKIN, SERGEANT AT ARMS


           opening statement of senator shelley moore capito


    Senator Capito. Good afternoon. I guess I will begin by 
saying the lights are a question, but we are going to proceed 
here, and hopefully have a good hearing.
    I want to thank everybody and welcome them to the first of 
our fiscal year 2017 budget hearings for the Legislative Branch 
Subcommittee of the Committee on Appropriations.
    Today, we are starting with two all-stars, the Honorable 
Frank Larkin, who is the Senate Sergeant at Arms, and Chief Kim 
Dine, who is the Chief of the U.S. Capitol Police. Welcome to 
both of you gentlemen.
    I would like to begin by congratulating Frank as he marked 
his first anniversary as Senate Sergeant at Arms in January, 
and the subcommittee, of course, welcomes back Chief Dine for 
his final appearance testifying before this subcommittee. I 
understand you just testified before the House subcommittee.
    I would really like to thank you, Chief Dine, for your 
great years of service to us here at the Capitol and the 
Capitol Police, but also your many years of service in law 
enforcement.
    I think we know these are not easy jobs. They are done with 
a lot of resolve and strength, and also with a lot of goodwill 
in your heart. I think that is recognized all across the campus 
here, the Capitol complex, and I want to thank you so much for 
what you have done.
    I know that being Chief of the Capitol Police has been a 
crowning achievement for you, having worked in and around DC 
for how many years?
    Chief Dine. Forty years.
    Senator Capito. Just 40 years. So, we are very sorry to see 
you go, but certainly understand your desire to move on and 
enjoy those two daughters, and we wish you the best in your 
future endeavors.
    It is worth noting that the Capitol Police Board just 
announced recently a selection for Chief Dine's successor, who 
is seated right behind him, Assistant Chief Matthew Verderosa, 
so welcome to you. I understand your first day will be here in 
the next several weeks, and you have been with the Capitol 
Police for 31 years, so you are just a newcomer. I think the 
board has made a very wise decision.
    So, again, thank you for being here. Once again this year 
we are faced with the very difficult and important discussion 
on how the agencies you represent will move forward in the 
coming fiscal year, given that we have a flat budget 
environment in which we must continue to operate.
    Although a budget agreement was reached last year that 
provided a slight increase in total discretionary spending, I 
would like to remind those of you in the room and listening 
that the agreement contained for all non-defense discretionary 
funding, only an increase of $40 million throughout the entire 
budget. So, this will be a challenge for everybody.
    Needless to say, in this environment, we expect the funding 
for the Legislative Branch to remain consistent with fiscal 
year 2016, which was $4.363 billion, and despite the fact that 
the 2-year budget deal was reached before agencies had to lock 
in their fiscal 2017 budget requests with the Office of 
Management and Budget (OMB), the agencies of the Legislative 
Branch have collectively requested an increase of $294.2 
million or 6.7 percent.
    While I can always appreciate that you do not get what you 
do not ask for, I think in some ways it is kind of staggering 
in the environment I just painted that the increase of 6.7 has 
been requested, so we are going to dig down, obviously, on 
that. We just know that we all need to remain cognizant of the 
current agreement and realize that funding increases are not in 
our future, and work together to get the best path forward.
    The Sergeant at Arms total request is $201 million, 
approximately $2 million or 1 percent above the fiscal year 
2016 enacted level. I am sure you will go over this in your 
statement.
    The request includes $72.5 million for salaries and 
benefits, which would allow the Sergeant at Arms to fill four 
vacant positions for a total onboard strength of 846, within 
the current authorized full-time equivalent level of 892.
    The request for expenses is $128.5 million, a decrease of 
$1.5 million or 1.1 percent below fiscal year 2016. The 
requested increases and offsets within that budget support the 
need for information technology improvements to support 
cybersecurity initiatives, upgrades to Senate recording studio 
equipment, and a constituent mail system upgrade.
    Finally, the Capitol Police has requested $409.6 million, 
an increase of $34.6 million or 9 percent above fiscal year 
2016. I will say as a reminder there was a 7.8 percent increase 
last year that was actually realized in the budget.
    Of the funding request, $333 million is for salaries and 
benefits to cover fixed cost expenses for pay and benefits of 
existing staff, and an additional 72 sworn officers and 51 
civilians for a total force of 1,895 sworn officers, and 424 
civilians.
    The request for expenses is an increase of $10.5 million or 
15.8 percent above enacted 2016. This increase would support 
security systems outfitting at the Alternate Command Center, as 
well as life cycle replacement of information technology 
systems, equipment, and training.
    I noticed a theme among each of your agency's requests: 
prioritization of increased personnel and funding for IT 
systems and equipment. I am looking forward to exploring those 
needs with you and other members of the subcommittee today and 
over the next several months.
    Now, I would like to turn to the ranking member, Senator 
Schatz, for any opening remarks he would like to make.


                   statement of senator brian schatz


    Senator Schatz. Thank you, Chair Capito, and welcome, Chief 
Dine and Sergeant at Arms Larkin. Your two organizations work 
24 hours a day, 7 days a week, to keep our campus safe and make 
sure that the Democratic process can operate. We deeply 
appreciate your expertise and your strong commitment to safety 
and security.
    Chief Dine, I want to thank you for your 4 years with the 
Capitol Police, and 40 years in law enforcement. You have been 
at the helm for one inauguration, four State of the Union 
addresses, and most recently, a papal visit. That is quite an 
accomplishment. Thank you for your service, and congratulations 
on your retirement.
    First, I want to quickly touch on the budget caps that are 
in place for fiscal year 2017. Those caps are a virtual freeze 
to current spending. That top line was approved several months 
before your budget requests were due.
    Yet, the budget request for the Capitol Police, which the 
Police developed, and Sergeant at Arms Larkin takes a part in 
approving, is a 9 percent increase, and it comes on the heels 
of an 8 percent increase this year. Continued increases at this 
pace are not realistic unless we lift the caps.
    I appreciate you flagging areas that may need more 
attention and do, but I am concerned that the fiscal planning 
may be aspirational rather than realistic. I think we need to 
focus on making the best of the resources that we have, and if 
it is not enough, then we need to address the reality of what 
the budget caps do to us.
    I think the budget caps are shortsighted. I strongly 
believe that we should adjust all the caps to enable critical 
investments in our aging infrastructure, research and 
development, small business, defense, and intelligence.
    I think we need to continue this conversation to make sure 
that we are investing wisely for the future. I look forward to 
hearing your views on how your budget requests would be 
prioritized as we face meeting these caps for 2017.
    Finally, I need to let you know that I am troubled by some 
developments over the last few months. Chairman Capito and I 
and our colleagues on the House Appropriations Committee were 
able to provide some additional funds for the Capitol Police in 
the 2016 Omnibus, in light of evolving threats from 
organizations like ISIL.
    I was pleased that we were able to make some additional 
investments in security, but as appropriators, we want to know 
where exactly the money is going, so we required a detailed 
spend plan for that funding. We only just received that plan on 
Friday, two full months after we approved $375 million for the 
Capitol Police for 2016, and here we are today examining your 
request for next year, and we are now just trying to get a 
handle on what you are spending this year.
    It is not acceptable for us to receive your spending 
proposal 2 months after the funding was provided, and only 2 
business days before a hearing.
    I am not only frustrated that the plan was late, I am also 
frustrated by the overall lack of communication. Some of the 
information you deal with is sensitive and we understand that, 
but that does not mean that everything related to security 
ought to get a rubber stamp.
    We are here to do our oversight responsibility, and we need 
to be fully informed and fully informed in time to exercise 
that responsibility.
    We are absolutely prepared to protect sensitive 
information, and if there is a conversation that needs to 
happen in terms of moving some of this to a classified setting 
over time, I think the subcommittee would be willing to 
entertain that.
    But as it is, we need to conduct our oversight 
responsibility. It does not change your obligation to be 
transparent and responsive to this subcommittee.
    I look forward to continuing to discuss these and other 
issues with both of you. Thank you, Chair Capito.
    Senator Capito. Thank you, Senator. With that, we will go 
to Mr. Larkin for his opening statement of approximately 5 
minutes. The written testimony of each witness will be printed 
in full in the hearing record. Thank you.


               summary statement of hon. frank j. larkin


    Mr. Larkin. Thank you, Chairman, and thank you, Senator 
Schatz, for the opportunity to be here. First, I want to 
commend the Chief sitting to my right. I have been in law 
enforcement for 40 years myself, and I certainly recognize the 
exemplary performance that he has been able to provide in the 
challenging position of chief of this department. Every day, he 
is engaging in some issue, whether it is on the House or the 
Senate side, in order to ensure the safety and security of this 
campus and everyone that crosses it.
    What folks do not know is that the Chief has probably spent 
more days during the week here on the campus than he has in his 
own home in Maryland, because of his priorities. Again, a 
consummate professional and certainly an example of leadership.
    I also want to commend Assistant Chief Matt Verderosa for 
taking the baton pass in a couple of weeks. I think the 
department is lucky to get a leader like Matt to keep the 
momentum going so that this complex and this Congress, continue 
to have the best department possible to protect its interests, 
and as Senator Schatz alluded to, to ensure the legislative 
process goes on without distraction.
    As you know, my goal as Senate Sergeant at Arms is truly to 
keep the communication transparency very vibrant and direct 
with the committees and your staffs. We are constantly 
challenged in this security environment with a dynamic threat 
that is morphing and changing every day, as we saw with recent 
incidents in Paris, San Bernardino, and a year ago the Charlie 
Hebdo incident.
    These incidents raised concerns almost immediately with 
various populations within our congressional community. We are 
constantly looking at our security posture, the way we do 
business. This is imperative because, if we fall back and play 
goal line defense, then one day we are going to be regretting 
the comfort zone that we have artificially put ourselves in.
    So, we are constantly leaning forward, hand in hand with 
the department, to look for opportunities to strengthen our 
defenses against vulnerabilities that we identify.
    One of the challenges that we face is the full spectrum of 
opinion regarding the security procedures on this campus, and 
achieving a balance between convenience and security. Yet, we 
have to be able to match our security processes and procedures 
to the current threats and try to be proactive in preventing 
those threats from affecting us.
    On the one hand, I have members and staff who are very 
concerned about maintaining the security of this campus, are we 
doing enough, protecting the legislative process at all cost.
    On the other hand, I also deal with members and staff who, 
quite frankly feel a level of immunity to what goes on outside 
this campus and the threats that are plaguing the real world 
today.
    The differing viewpoints are addressed through effective 
communication and collaboration and trying to entertain all the 
opinions and perspectives of our activities on this campus.
    I look forward to working with the subcommittee on this, 
and Senator Schatz, duly noted. We are working to increase our 
communications with you and your staff. We all have the same 
goal: to assure the safety and security of this campus, 
allowing the legislative business to continue.
    I thank the subcommittee.
    [The statement follows:]
               Prepared Statement of Hon. Frank J. Larkin
                              introduction
    Madam Chairwoman, Ranking Member Schatz, and Members of the 
Subcommittee, thank you for allowing me to testify today. I am pleased 
to report on the progress of the Office of the Senate Sergeant at Arms 
(SAA) and our plans to enhance our service to the Senate.
    For fiscal year 2017, the Sergeant at Arms respectfully requests a 
total budget of $201,035,000. This request represents a modest 1.0 
percent increase from the current enacted budget, but is nearly 
identical to our budget level from fiscal year 2008. Since that time, 
we have realized significant cost savings from the staff buyouts 
completed in 2013 and from rigorous contract management and 
restructuring, while continuing to provide the critical, high-quality 
services that the Senate community has come to expect from us. Our 
customer satisfaction levels remain high and we remain good stewards of 
the funds entrusted to us.
    Leading the efforts of the office of the Sergeant at Arms is an 
outstanding senior management team including Jim Morhard, who serves as 
my Deputy; Chief of Staff Mike Stenger; Assistant Sergeants at Arms 
Dick Attridge (Intelligence and Protective Services), Vicki Sinnett 
(Chief Information Officer), Bret Swanson (Operations), and David Bass 
(Capitol Operations); General Counsel Terence Liley; Legislative 
Liaison Mason Wiggins; Democratic Liaison Scott Rodman; and Chief 
Financial Officer Chris Dey. The many goals and accomplishments set 
forth in this testimony would not have been possible without this 
team's leadership and commitment, as well as the dedication of the 
women and men who work for the Senate Sergeant at Arms office.
                   protective services and continuity
Emergency Preparedness
    Our plans and procedures are designed to ensure the life safety of 
Senators, staff, and visitors within our facilities by equipping them 
with the necessary tools to respond to emergency situations. Our plans 
are also developed to make certain the Senate can continue its 
essential functions following an emergency event.
    My office worked with Senate offices to update 102 Emergency Action 
Plans. The Emergency Action Plan lays out specific emergency procedures 
that each office will follow. New Senators and their staff received 
personalized training on emergency preparedness procedures, alert 
notifications, personnel accountability, and equipment use. 
Additionally, new Member and spouse emergency action cards were 
developed and delivered to each Member and Chief of Staff. We also 
distributed a new Quick Reference Guide that condenses critical 
information to help staff respond to threatening situations, 
protestors, suspicious mail, and other emergency events.
    We conducted a robust training program to ensure the Senate 
community is prepared to respond to a variety of emergency events at 
work and home. More than 4,300 staff members were trained during 222 
classes covering a variety of topics, including a new curriculum 
designed for staff working in the Postal Square building. The 
``Responding to an Active Shooter'' class continues to be one of our 
most popular trainings. The course is taught in conjunction with the 
U.S. Capitol Police (USCP) and is valuable for educating staff on what 
to expect from law enforcement throughout an active shooter event.
    We work with USCP to execute annual evacuation, shelter in place, 
and internal relocation drills so staff are familiar with appropriate 
life-safety responses to emergency events that may occur on Capitol 
Hill. We supported 25 drills that included the Capitol, Senate office 
buildings, the Senate Page School, Employee Child Care Center, and 
Postal Square. Many of these exercises were ``no notice,'' which 
enables a more realistic response to emergency events. We upgraded our 
accountability equipment, database, and Web sites this year to improve 
our ability to gather data following an emergency and incorporate 
lessons learned.
    We maintain the necessary equipment for staff to respond to 
emergency situations by supplying offices with escape hoods, victim 
rescue units, supply kits, and annunciators. We inventoried more than 
270 offices and 28,000 pieces of emergency equipment this year to 
verify and correct functionality.
    To improve our alert messaging capability, we initiated a project 
with USCP, the House of Representatives, and the Architect of the 
Capitol to acquire a joint emergency mass notification system. This 
project aims to improve and reduce the number of alert notification 
systems needed to transmit critical life safety messages throughout the 
Capitol complex. The goal is to reduce the time it takes to broadcast 
messages over numerous platforms, allowing individuals additional 
emergency response times. Once complete, the system will rapidly send 
alert notification messages to Senators and staff by email, phone call, 
text message, desktop computer pop-up, and smartphone applications. By 
collaborating with multiple legislative partners, this improved 
capability also provides significant cost savings to the Senate.
    Communication between Senate staff responsible for executing plans 
during and following emergencies is critical to ensuring successful 
outcomes. My office set up deployable radio systems during exercises 
and is working on a more modern capability for expanded interactions. 
We are also evaluating new secure mobile communications options to 
replace legacy devices as technology evolves.
Contingency Programs
    Throughout 2015, my staff developed and refined contingency plans 
as a collaborative effort with Joint Congressional Continuity Board 
planners and partners. To better support our Continuity of Government 
(COG) mission, we have transformed the way continuity equipment is 
procured, tracked, stored, and maintained for the Senate. We have 
developed a customized inventory tracking system, which includes the 
systematic logging and verification of materials and equipment. System 
effectiveness was demonstrated during several continuity-related 
exercises in which dozens of inventoried pallets were methodically 
located, loaded, transported, and unpacked in a timeframe that far 
exceeded requirements. Staff have also made updates to SAA logistics 
and inventory plans, enhancing storage methods and expediting materials 
deployment.
    We continue managing a comprehensive Senate exercise program 
structured to certify plans are practiced and validated regularly. 
Previously coordinated by a vendor, the Senate Test, Training, and 
Exercise Program has transitioned to full-time Senate staff including a 
supervisor and three planners. This shift has resulted in a more 
dynamic program that prepares the Senate for diverse emergencies and 
has resulted in annual cost savings of approximately $634,000. In 2015, 
the Senate conducted over 20 exercises, tests, and guided discussions 
covering all aspects of emergency response, including Mobile Assets, 
Chamber Protective Actions, Alternate Chamber Operations, Leadership 
Coordination Centers, Emergency Operations Centers, Briefing Centers, 
communications, transportation, continuity staffing, evacuations, 
internal relocation, shelter in place, alert notifications, and COG 
operations.
Security Planning and Police Operations
    My staff coordinates security and law enforcement support for the 
Senate community, including Member offices, State offices, committees, 
and other support offices on Capitol Hill. Our main function is to act 
as a liaison between USCP and the Senate community. Much of the work is 
done behind the scenes, but is vital nonetheless. This year's efforts 
included coordinating 1,040 Senate campus access requests; working with 
the Committee on Rules and Administration and USCP to identify and 
publish numerous Senate office building door and barricade openings 
during recess periods, special events, and holidays; and coordinating 
18 office security sweeps and 9 proximity card reader installations 
throughout Senate office spaces. Additionally, we coordinated security 
coverage of 382 committee hearings, conducted 4 Member home 
assessments, and presented 6 security awareness briefings.
    We provide staffing for the USCP Command Center support program 
during all hours the Senate is in session and throughout normal 
business hours during periods of recess to allow for real-time 
communications between my office, USCP, and the Senate community during 
special events, emergency incidents, and routine operations. This year, 
we monitored 352 incidents and events through this program.
    Finally, my staff handles the State Office Readiness Program, which 
delivers security and preparedness resources to State offices, 
including rapidly deployed temporary duress alarm systems added this 
year. In addition to security and safety equipment, my staff provide 
Web-based security training for offsite personnel. Training programs 
include ``Responding to Physically Threatening Individuals'' and 
``Security and Emergency Preparedness for State Offices.'' We also 
rolled out the State Office Preparedness Pilot program to provide 
additional resources for State offices.
                         information technology
Cyber Security and Response
    In 2015, we focused on a multi-dimensional, transformative approach 
to identify gaps in our security posture and implement cyber security 
strategies to be more proactive to the advanced cyber threat. This 
approach focused on the technology and on educating the user, training 
security staff, and respecting tax payers' dollars.
    Partnerships were developed with Virginia Tech and the commercial 
sector to develop a mobile application to educate the Senate community 
about where and how they are vulnerable, and provide security tips for 
the end user. This, and other ongoing education efforts, will help to 
continuously educate the user throughout the year regarding the cyber 
threat.
    Early in 2015, a holistic cyber security technology review was 
completed; an implementation strategy was developed; various 
procurements were completed; and implementation is underway to 
integrate new technologies, including transforming how network 
vulnerabilities are identified and improving our ability to determine 
cyber risk. Early results are positive for email traffic. In the 
previous year, 884,000 malicious messages were blocked. With the recent 
technology improvements, an additional 21,000 messages were analyzed 
for threat activity, blocked, and affected users notified to prevent a 
network breach.
    Similar positive results have been seen with the Senate Secure Web 
Gateway. In 2015, 43 million connections to over 50,000 Web sites were 
blocked to prevent attacks on the internal network. These statistics 
demonstrate the agility and dynamic capability of the advanced cyber 
threat. As the newly procured technologies continue to be implemented, 
new cyber security processes and procedures will be improved as well.
    Significant investments in cyber security have been made, and 
initial results have been positive and effective at reducing the cyber 
risk. Continuing to invest in cyber security will promote the SAA's 
ability to lower the cyber risk, promote an agile cyber defense 
strategy, and proactively defend the network against the advanced cyber 
threat.
Network Operations
    In 2015, the Network Operations Center received and serviced 2,123 
Service Center ``incident'' tickets, and processed over 2,800 change 
requests, including more than 1,300 LAN drop requests. Of the 240 
survey responses from users, 90 percent received a customer 
satisfaction rating of Exceptional or Very Satisfied.
    Our multi-year project using broadband Internet service to support 
Senate state office locations continues to do well. It significantly 
increases the amount of bandwidth at each of the 460-plus locations, 
increasing the performance at each site for both intranet and Internet 
services. The increased bandwidth also supports emerging technologies 
such as improved video conferencing capabilities between DC and a State 
office. We have completed the migration of over 330 offices, saving the 
Senate approximately $85,000 a month as a result. Migration for the 
remainder of the offices will be completed by the end of the year.
Wireless Networking
    Full implementation of the Discovery wireless network was completed 
in 2015 along with the expansion of a separate wireless network 
allowing offices to provide constituents guest access to Internet-only 
resources. The implementation of Discovery and termination of the 
Odyssey wireless network improved our cyber security posture by now 
allowing only wireless devices that are considered Senate assets access 
to the internal network via Discovery.
Senate Payroll System
    We are collaborating with the Secretary of the Senate to support 
and enhance the PeopleSoft Senate Payroll System. In the last quarter, 
we began a successful self-service pilot that allows individuals online 
access to view their pay advices, W-2s, benefits summaries, Affordable 
Care Act forms, and other personal information. We expect to make self-
service available to all Senate employees by the end of the year.
Data Center Management
    We continue to modernize and improve our data centers. Energy 
efficiency improvements include upgrading airflow, and reorganization 
of space and rack placement in the Postal Square data center. Enhanced 
monitoring of the facility environment, along with new alerting, allows 
us to react to environmental issues more quickly and ensure systems 
availability. A 5-year data center modernization plan is being 
developed to include a best-practices approach for the configuration of 
our data centers in the future.
VMI--Expansion, Upgrade and Storage Reconfiguration
    After several years of use, multiple upgrades, and multiple 
capacity increases, the NetApp storage environment supporting the 
Virtual Machine Infrastructure (VMI) was becoming overburdened, both in 
terms of capacity and performance. The CIO developed a migration plan 
to re-architect the NetApp storage environment, going from many smaller 
pools of storage to fewer, much larger pools of storage. The migration 
was accomplished without downtime or user impact and ultimately 
resulted in more available storage space and better overall performance 
of the storage system supporting the VMI. The improved performance 
gained prevented the SAA from having to procure additional storage to 
add performance to the system, ultimately saving at least $100,000.
Significant Videoconferencing Enhancements (Lync Video and 
        Join.Senate.Gov--Multiparty Videoconferencing)
    To deliver on our strategic goal to provide a state-of-the-art 
infrastructure built on modern, proven technologies, we enabled Lync 
video and introduced join.senate.gov as a replacement for the Personal 
Video Hub multiparty videoconferencing service.
    We also integrated with consumer Skype to enable video calls with 
external Skype users from Senate video clients and systems. There was 
no additional cost for enabling Lync video.
    Join.senate.gov is a new, modern, feature-rich and robust service 
provided by the SAA to deliver client-free, multiparty 
videoconferencing with anyone who has an Internet connection and a 
Webcam, and connectivity between our legacy videoconferencing room 
systems and clients and our Microsoft Lync system.
    These integration efforts significantly enhanced Senate unified 
communications capabilities, providing offices and users with more 
options and flexibility for communicating and collaborating internally 
and with external parties. As an added benefit, we will save 
approximately $120,000 per year by retiring parts of our legacy 
videoconferencing system.
Document Compare Application
    In response to office requests for a document comparison utility 
that would ease the tedium of identifying line-by-line differences 
between two or more documents, the SAA CIO evaluated various solutions 
in the marketplace. Based on feedback from key Member office 
stakeholders, we recommended support for two products, Workshare 
Compare and Beyond Compare. Both were added to the Technology Catalog.
Electronic Financial Disclosure (eFD)
    Development of the Electronic Financial Disclosure Application 
(eFD) was initiated to satisfy statutory requirements as outlined in 
Public Law 112-105 Section 8(b). The SAA development team recently 
completed a substantial new release of the application that included 
more robust administrative, search, and reporting tools and other 
functional enhancements. In 2015, 87 Senators and 73 percent of all 
eligible filers utilized eFD to file electronically. The Senate Ethics 
Committee anticipates that this number will grow to 90 percent in 2016.
Otis--A Senate Personnel Management System
    Otis is an encrypted, secure, and replicated Web-based personnel 
management system for Member and committee offices to manage 
administrative information about their staff. The current system 
includes support for staff and profiles, leave processing, timesheet 
processing, and basic payroll processing. Seventy offices currently use 
Otis to manage this information. Future releases will include support 
for the remainder of payroll processing. Otis replaced a system built 
on software that is no longer supported and helped reduce costs as the 
SAA is no longer paying the $268,000 annual maintenance fee for the old 
system.
Gallery Credential Management
    The Gallery Credential Management System helps Senate Press Gallery 
Staff process press credentials for members of the media covering the 
Senate. The SAA development team merged two existing systems into one 
using a more modern development language and framework. The four 
galleries have moved to the unified version of the application and, in 
two instances, replaced paper-based processes.
TranSAAct
    We continue to add functionality to TranSAAct, our platform for 
doing business online, eliminating paper-based manual processes and 
addressing the requirements of offices and the Committee on Rules and 
Administration. Built on an extensible modern database framework, 
TranSAAct allows indefinite expansion as new requirements are 
identified.
    Over the past year, we added the new shared chat service to 
communication services requests. Responding to customer feedback, we 
improved the process of returning wireless devices to stock and 
provided users with the ability to save their profiles to reduce 
repetitive data entry. We rebuilt the home page to provide a dashboard 
view of the various services and service requests and improve user 
navigation. We gave users the ability to manage their notification 
preferences as well, again in response to customer requests. To support 
the introduction of Otis, we also modified the ID request pages to 
include information needed and minimize manual data entry. We also 
upgraded several infrastructure components to remain current and 
supported.
    Currently, we are improving the functionality of the Floor pass 
system and upgrading some of the technologies in TranSAAct. In the 
coming year, we plan to improve the process for requesting 
communications services while revisiting the features offered. We will 
update the ID request pages to reflect current business processes using 
newer technologies and will incorporate software subscription renewals 
into TranSAAct as well.
Upgrading Existing Mobility Technologies and Support
    In 2015, all legacy BlackBerry devices were migrated from the BES 5 
server to either iOS or BES 10 platforms. This lowered administrative 
and support burdens while enhancing the Senate's security posture by 
reducing complexity and moving all users to modern, supported mobile 
devices with the latest features and controls.
    Many Senate offices opted to upgrade legacy devices with iPhones, 
requiring an increased Mobile Communications Systems (MCS) budget since 
Apple products, AppleCare+, and their accessories are more expensive, 
where previously, wireless carriers offered legacy BlackBerry devices 
at $0.
    The increased demand for iOS devices has necessitated a better 
support infrastructure. In 2016, the CIO organization will offer more 
robust support for these iOS devices by having certified staff and 
warranty stock onsite so that users no longer have to visit an Apple 
retail store to troubleshoot or exchange faulty devices.
    We are currently evaluating Samsung's Galaxy Android series and 
BlackBerry PRIV as possible additions to Mobile Communications 
offerings, providing additional options in addition to BlackBerry and 
iOS devices. Prices will be higher than for BlackBerry devices. Testing 
of new smartphones is an ongoing process.
Telecommunications
    Our voicemail system was upgraded to include twenty redundant 
servers helping support continuity of operations. Additional mobility 
and redundancy will be added in the future. This upgrade provides more 
capacity to support the new Interactive Voice Response (IVR) system in 
the Capitol Exchange and allows use of a new software package for 
reporting more robust statistics. The IVR provides an automated path 
for constituents to reach Members of Congress during times of high call 
volume without the need for operator intervention.
    In 2014, we started a multiyear process to upgrade the telephone 
system (CS2100) in Washington, DC. We are in the final phase of this 
project, which is adding Session Initiation Protocol (SIP) trunks lines 
and removing our dependency on expensive Verizon trunking. This will 
generate cost savings over the next several years.
    The long anticipated, multi-year effort to upgrade antiquated State 
office telephony for all 460-plus State offices is underway. It will 
modernize State office communications systems with new hardware, more 
features, and additional security at a lower cost. Anticipated benefits 
will begin in fiscal year 2016 and increase throughout the life of the 
migration process.
                               operations
Central Operations
            ID Office
    The ID Office has successfully simplified the badge issuing process 
by consolidating two card management systems. Efforts to increase the 
use of secure Smart Cards continue and various customers are testing 
capabilities of the cards. In addition, the ID Office is planning to 
implement an Identity Management System in order to better manage 
Senate staff credentials across the myriad systems supported by the 
Sergeant at Arms. During each Congress, the Senate ID Office issues 
over 35,000 IDs to Senators, staff, liaison personnel, and designated 
members of the media.
            Parking Operations
    Parking Operations has successfully adopted social media and has 
increased outreach to the Senate community. This will be particularly 
useful during the renovations of the Russell Legislative Garage and the 
Thurgood Marshall Judiciary Office Building Garage.
    Work on the Judiciary Office Building Garage is underway, resulting 
in some Senate permit holders being relocated to other levels of the 
garage. The Architect of the Capitol has designed the work in phases to 
limit disruption to permit holders. It is anticipated that all current 
permit holders will be accommodated in the garage throughout the 
project.
    The Russell Legislative Garage renovation will displace the parking 
permit issuance booth and more than 100 spaces that are under the 
control of the Committee on Rules and Administration. Parking 
Operations will work closely with the Committee's staff and AOC 
personnel to ensure customer service can be maintained and displaced 
garage permit holders are accommodated in other Senate areas. The 
permit issuance booth issues over 9,000 permanent permits each Congress 
and maintaining a location to provide this service is extremely 
important. Ensuring all stakeholders are aware of the plans for the 
renovation will be a primary focus of Parking Operations.
    Parking Operations will also be heavily involved in plans for the 
58th Presidential Inauguration. Significant traffic impacts have been 
overcome in previous years and 2017 is not expected to be different.
            Transportation and Fleet Operations
    Transportation and Fleet Operations procures, manages, and 
maintains Senate vehicles; provides transportation information to 
offices; operates the Senate Daily Shuttle and Parking Shuttle 
services; and provides the Senate with emergency transportation and 
logistics support. The Senate SAA fleet includes trucks, vans, buses, 
SUVs, electric vehicles, handicapped-accessible vehicles, and Segways. 
In fiscal year 2015, Fleet Operations staff transported more than 
25,000 passengers through the SAA Parking Shuttle service.
            Photography Studio
    The Photography Studio provides photography and photo imaging 
services for Senate offices and committees. The Studio manages and 
maintains the Photo Browser Application, which provides Senate offices 
a secure location to upload, organize, download, and place orders for 
their photos through a Web interface. All photos in a Senator's 
collection are archived in the Photo Browser system and are accessible 
during their time in office.
    The Photo Browser system currently contains over 1.1 million photo 
image files. Upgrades to the user interface are currently underway in 
order to provide a more efficient and intuitive user interface and 
expand opportunities to introduce new features in the future.
    In fiscal year 2015, Photo Studio staff photographed more than 
76,000 images and produced more than 62,000 photo prints, and 
coordinated scanning for End of Term (EOT) archiving of more than 
38,000 photo images for Senators.
Printing, Graphics, and Direct Mail
    The Printing, Graphics, and Direct Mail (PGDM) department provides 
support to the Senate community through graphic design, printing, 
mailing, document preservation, photocopying, logistics and security--
producing over 57.6 million items during fiscal year 2015.
    As a good steward of fiscal resources, PGDM garnered notable 
savings for the Senate:

  --In fiscal year 2015, PGDM produced more than 13,000 charts.
  --More than $1.1 million was saved in postage costs by pre-sorting 
        and discounting 5.3 million pieces of outgoing Senate franked 
        mail.
  --More than $24,000 in postage was saved by using software to 
        identify over 49,000 undeliverable addresses before they were 
        introduced into the U.S. Postal Service mail stream.

    In fiscal year 2015, PGDM produced 1.6 million constituent letters 
through digital print/software solutions, making it easier to provide a 
quicker reply to constituents through traditional letters with the 
Constituent Services System. PGDM produced 4.2 million digital images 
by implementing high-speed digital scanners, imaging Members' mail, and 
using document file management systems and devices that convert 
obsolete media--VHS/Beta/cassette--to useable digital files.
    PGDM's document file management system contributed to Member 
offices going paperless and provided them the ability to perform 
searches for specific dates, legislative issues, or individual 
constituent correspondence throughout their entire document collection. 
PGDM maintains several high-volume production printers that had a 
combined copy count of more than 11.8 million impressions during fiscal 
year 2015. In fiscal year 2016, PGDM will be acquiring a new high-
volume digital press to replace two outdated printers. This acquisition 
will reduce annual maintenance cost, achieving $40,000 in savings. We 
recently procured a new mail sorter and PGDM has trained employees to 
perform routine maintenance, which already generates an annual savings 
of $41,000.
Senate Post Office
    The Senate Post Office's workforce tests and delivers mail and 
packages to over 180 locations within the Capitol complex while 
providing a messenger service to multiple locations within the 
Washington metropolitan area.
    An accountable mail tracking system was implemented that 
transitioned from paper manifesting to a real-time digital system. This 
system enables us to identify the location of accountable mail items 
from the moment we receive them through the moment of delivery to the 
customer.
    A bipartisan pilot program has been implemented to address two 
recurring concerns that Senate State offices have regarding their 
existing mail screening units: size and noise. The Sentry Air System 
has been identified as a viable replacement for the existing Postal 
Sentry units utilized in Senate State offices. Offices participating in 
the pilot program will evaluate these new devices and compare them to 
the previous versions.
Capitol Facilities
    Capitol Facilities supports the Senate community by providing a 
clean and professional work environment in the Capitol. Our 
Environmental Services division cleans Capitol spaces, moves Capitol 
furniture, and provides special event setups in the Capitol--including 
10 event spaces in the Capitol Visitor Center. Capitol Facilities 
Furnishings division provides furnishings, including stock and custom 
furniture, carpeting, and window treatments to Capitol offices, and 
framing services for offices and committees throughout the Senate 
community.
    Focus continues to be on realizing cost savings while not 
sacrificing service and improving efficiency. Capitol Facilities has 
combined job specialties and engaged in cross-training employees to 
ensure that services are maintained at the high level expected. In 
addition, we are planning an upgrade to the Capitol Facilities Online 
Request System (CapFOR) to give more information online to offices so 
that they can identify furniture that more readily meets their needs. 
We are also developing an online work order system to improve 
efficiency and ensure customer satisfaction.
Office Support Services
    The State Office Liaison staff serve as the conduit between Senate 
offices and commercial landlords, or the General Services 
Administration for Senate offices in Federal facilities, overseeing 465 
State offices. Managing this important program helps assure every 
Senator's ability to meet the growing needs of their local 
constituencies.
                           capitol operations
    Ensuring that our customers--both internal and external--have 
access to the Senate and understand its work remains the focus of the 
SAA's Capitol Operations team. Over the past year, team members 
provided a range of services to Senators and their staffs, visitors to 
the Capitol, members of the news media who cover Congress, and the 
public. Capitol Operations continues to focus on providing timely, 
accurate, and useful information that promotes safety, increases 
transparency, and enhances the experience of those who work in and 
visit the Senate.
Senate Recording Studio
    In a time of instant communication and demands for transparency, 
the Senate Recording Studio helps ensure that the work of the Senate 
remains accessible to the public. During 2015, the Recording Studio 
provided 1,073 hours of gavel-to-gavel coverage of Senate Floor 
proceedings and continues to provide technical support for live-
streaming and archiving of the proceedings on the Senate's Web site, 
www.senate.gov. Last year, this online resource was viewed 2.46 million 
times by more than 198,000 unique visitors. To keep the quality of this 
production in line with current standards, the Studio will upgrade the 
Senate Floor audio system in 2016, with completion scheduled for 2017. 
The Recording Studio also broadcast 742 Senate committee hearings in 
2015. Another priority of the Recording Studio is to enable Senators 
working in DC to communicate with their constituents back home. During 
2015, the Studio produced 1,063 television and 1,101 radio productions 
for Senators. In September, the Studio assisted in coordination and 
provided audio and video feeds to the large video screens on the West 
Front during Pope Francis' visit to the Capitol. Additionally in 2015, 
the Recording Studio completed a digital upgrade to its emergency 
satellite truck using only in-house engineering resources and without 
requesting additional funding.
Senate Media Galleries
    For members of the news media, the Senate remains one of the most 
open and accessible institutions of Government. On any given day, 
hundreds of reporters, producers, photographers, videographers, and 
technical support personnel can be found in hearing rooms, hallways, 
and in the Chamber, bringing the news of the Senate to people across 
the country and around the world.
    Ensuring that the news media can conduct their business 
efficiently, safely, and in a manner consistent with Senate rules is 
the responsibility of the staff of the four Senate Media Galleries. The 
unique structure of the Media Galleries, dating back to the earliest 
days of the Senate, requires them to work closely and cooperatively 
with their respective Standing and Executive Correspondents' 
Committees, the U.S. Capitol Police, and press secretaries and 
communications staff of Senators' offices and Senate committees. Media 
Gallery staff facilitate media credentials and arrangements for the 
almost 7,000 members of the news media who can cover the Senate in a 
given year.
            Daily Press Gallery
    The Daily Press Gallery supports reporters working for publications 
that publish on a daily or more frequent basis. Last year, the Daily 
Press Gallery issued credentials to approximately 1,800 journalists. As 
custodians of the largest press complex on Capitol Hill, the Gallery 
staff serve more than 100 reporters who physically work in the Press 
Gallery on a regular basis. Gallery staff also help control access to 
the Press Gallery inside the Senate Chamber and ensure Gallery rules 
are followed. This year, Gallery staff focus on streamlining 
information to constituents via an updated website, an email list 
serving 600 reporters and Senate staff, and a Twitter account 
(@senatepress) with approximately 2,000 followers.
            Periodical Press Gallery
    The Periodical Press Gallery supports the news media working for 
non-daily periodicals and their online publications. This year, the 
Gallery will implement an online database system to credential over 
1,200 members, a process that restructures the issuance of credentials 
and eliminates unnecessary paperwork. The Periodical Press Gallery is 
currently preparing credential distribution for the 2016 National 
Conventions, where staff will administer credentials to over 200 
periodical publications and 700 journalists. Following the conventions, 
credentialing more than 900 periodical journalists for the 2017 
Presidential Inauguration begins. Gallery staff remain focused on 
streamlining communication with Gallery members and Senate staff. For 
example, the number of followers on the Gallery's Twitter account 
(@SenatePPG) grew over 20 percent to 4,200. These efforts help drive 
traffic to the Gallery's Web site, where information on Floor 
proceedings, the credentialing process, and other areas of interest is 
consolidated. The Gallery's Web site averages approximately 50,000 hits 
a year.
            Press Photographers Gallery
    The Press Photographers Gallery supports photographers representing 
news organizations from across the United States and around the world. 
Last year, the Gallery credentialed approximately 300 news 
photographers. Unlike the other three Media Galleries, which have 
counterparts in the House of Representatives, Press Photographers 
Gallery staff support the media at news events and hearings in both 
Houses of Congress. During 2015, the number of followers on the 
Gallery's Twitter account (@USSenatePhoto) grew 184 percent to more 
than 1,700, allowing Gallery members to keep photographers and Senate 
staff apprised of congressional events.
            Radio and Television Gallery
    The Radio and Television Gallery serves as the Senate's primary 
contact to the broadcast news industry and ensures that the Senate's 
broadcast coverage rules are followed. Gallery staff function as 
liaisons between Senate offices and the broadcast media to assist in 
organizing coverage of news conferences, committee hearings, photo 
opportunities, and special events. The Gallery issued credentials to 
approximately 3,600 television and radio reporters, producers, and 
technical personnel. The Gallery also maintains the studio that 
Senators use for news conferences. While the studio space was updated 
to accommodate digital broadcasting and high definition distributions, 
a number of upgrades are planned to improve the audio quality in the 
studio, including ambient microphones and soundproofing. To further 
enhance communications, the Radio-TV Gallery maintains a Twitter 
account (@SenateRadioTV) with approximately 2,500 followers, a 265 
percent increase from last year.
Senate Doorkeepers
    Senate Doorkeepers play a critical role in supporting the 
legislative process of the Senate. Doorkeepers provide access to those 
with Senate Floor privileges; enforce the rules of the Senate Floor; 
and facilitate the needs of Senators, Senate Floor staff, and Senate 
Pages. Doorkeepers also provide support for a number of special events 
attended by Senators, their families, and special guests. In addition 
to directly supporting Senators, Doorkeepers also ensure that people 
from around the world can visit the Senate Gallery safely. During 2015, 
approximately 193,000 people visited the Senate in person with the help 
of Senate Doorkeepers. That corresponded to nearly 1,015 people a day, 
both when the Senate was in session and during scheduled recesses.
Senate Appointment Desks
    The Senate Appointment Desks are responsible for processing 
thousands of guests who enter the Capitol each year for business 
meetings or other purposes in a safe and efficient manner. During 2015, 
approximately 215,000 visitors were processed through our network of 
Appointment Desks located on the first floor of the Capitol, in the 
basements of the Russell and Hart Senate office buildings, and in the 
Capitol Visitor Center. Of these, 132,000 visitors were in the Capitol 
for official business or a direct meeting with a Member, a Member's 
office, or a committee. In addition, more than 25,000 international 
visitors relied on the CVC Appointment Desk for Senate Gallery Passes 
and information.
Office of Internal Communications
    The Office of Internal Communications (OIC) streamlines 
communication within the SAA organization and to the rest of the Senate 
community through a combination of online, digital, and traditional 
print publications. Last year, the office sent 524 Notices and 101 Dear 
Colleague messages electronically, saving resources and speeding 
delivery of important information. In addition, OIC manages two Web 
sites--one internal to the SAA and the other accessible to the Senate 
community. During the past fiscal year, OIC staff edited and helped 
produce 175 publications, including safety bulletins, newsletters for 
both Senate and SAA staff, and procedural manuals. Finally, the OIC 
manages the SAA's use of social media to enhance communication with SAA 
employees, Senators, the Senate community, and the public. Substantial 
increases over the past year prove the information is well received and 
useful. Recently, the SAA Twitter account (@SenateSAA) exceeded 10,000 
followers and our Facebook page has garnered nearly 9,500 ``likes.''
                          saa human resources
    The primary function of the SAA Office of Human Resources is to 
provide personnel services and advice to SAA managers and employees. 
SAA Human Resources also provides workers' compensation, ergonomic 
assessments, Americans with Disabilities Act (ADA) accommodation 
requests, and recruitment services to the broader Senate community.
Senate Placement Office
    During fiscal year 2015, Senate offices submitted 549 requests for 
recruitment assistance to the Senate Placement Office; 34,631 resumes 
were processed by the Placement Office in response to these requests. 
Overall in fiscal year 2015, the Senate Placement Office processed 
37,437 resumes from applicants for vacancies in Senate offices and 
committees.
                senate office of education and training
    The Office of Education and Training provides training for all 
Senate staff in Washington, DC, and in State offices. We provide 
performance skills training, technical skills training, and coordinate 
and provide major training events for State and DC staff.
    The Office of Education and Training partners with 15 other 
training providers to ensure Senate staff have the resources and skills 
they need to perform their jobs.
    In 2015, Education and Training staff taught more than 250 of the 
735 instructor-led classes in which more than 2,000 enrolled. Education 
and Training provided customized training, facilitation services, and 
coaching to more than 150 Senate Member, committee, and support 
offices, benefitting more than 2,200 staff.
    We held three training conferences for State staff. Over 250 State 
staff participated in these conferences.
Health Promotion
    Our Health Promotion office has been legislatively mandated to 
provide Health Promotion activities and events. The Health Promotion 
office coordinates and runs the 2-day Health and Wellness Fair for 
Senate staff. In 2015, over 1,500 staff participated in health 
promotion activities, which included lung function and kidney 
screenings, blood drives, and seminars on health-related topics. We 
also coordinate Weight Watchers, Yoga, and Pilates sessions using a 
revolving fund.
    We will continue to expand our online training options for Capitol 
Hill and State staff. This year we will start our transition to our new 
model where we provide more team training and less general classroom 
training. We will also find ways to engage Chiefs of Staff, 
Administrative Managers, and Chief Clerks in ongoing networking and 
professional development.
                      employee assistance program
    Our Employee Assistance Program (EAP) offers a variety of 
emotional, behavioral and work-related support resources and services 
to staff, their family members, Senate Pages, and interns. In 2015, 
nearly 1 in 20 Senate employees utilized the services of an EAP 
counselor; 208 employees took an online mental health screening; 70 
managers requested a supervisory consultation; 2,816 employees attended 
an EAP training activity; and 1,938 employees accessed resources for 
personalized information and referrals addressing childcare, parenting, 
adult care, aging, education, legal concerns, and/or financial issues.
                               conclusion
    The Sergeant at Arms is composed of a diverse array of 
organizations. All of them exist to serve the Senate so that it can 
function as part of the Legislative Branch of our Government. To 
provide the checks and balances on any administration, the Legislative 
Branch must be able to function efficiently in an effort to create and 
pass legislation. To do so, the Senate Sergeant at Arms must and will 
provide the needed services that allow it to function.

                               APPENDIX A

                    Fiscal Year 2017 Budget Request

          Office of the Sergeant at Arms--United States Senate

                   FINANCIAL PLAN FOR FISCAL YEAR 2017
                         [Dollars in thousands]
------------------------------------------------------------------------
                                      Fiscal year 2016  Fiscal year 2017
                                           Enacted           Request
------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries........................           $69,000           $72,500
    Expenses........................            64,653            66,858
                                     -----------------------------------
      Total General Operations &              $133,653          $139,358
       Maintenance..................
 
Mandated Allowances & Allotments....            45,258            46,007
Capital Investment..................            14,286             8,360
Nondiscretionary Items..............             5,803             7,310
                                     ===================================
      Total.........................          $199,000          $201,035
 
Staffing............................               842               846
------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services, and equipment, we submit a fiscal year 2017 
budget request of $201,035,000, an increase of $2,035,000 or 1.0 
percent compared to fiscal year 2016. The salary budget request is 
$72,500,000, an increase of $3,500,000 or 5.1 percent, and the expense 
budget request is $128,535,000, a decrease of $1,465,000, or 1.1 
percent. The staffing request is 846.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The General Operations and Maintenance Salaries budget request is 
$72,500,000, an increase of $3,500,000, or 5.1 percent, compared with 
fiscal year 2016.
    The General Operations and Maintenance Expenses budget request is 
$66,858,000, an increase of $2,205,000, or 3.4 percent, compared with 
fiscal year 2016. The increase is due to funding for security 
initiatives.
    The Mandated Allowances and Allotments expense budget request for 
fiscal year 2017 is $46,007,000. This budget supports State office 
rents at $18,459,000; purchase of computer and office equipment at 
$8,818,000; maintenance and procurement of Member office constituent 
mail services system at $7,150,000; voice and data communications for 
Washington, DC and State offices at $5,400,000; recording studios, 
$2,600,000; State office security enhancements at $1,918,000; wireless 
services and equipment, $1,457,000.
    The Capital Investments expense request for fiscal year 2017 is 
$8,360,000. This budget includes funding for Recording Studio equipment 
upgrades at $2,625,000; Storage Area Network upgrades at $2,075,000; 
Network Management Equipment and Technology Upgrades, $1,910,000; and 
DC Network Equipment Refresh at $1,300,000.
    The Nondiscretionary Items expense request for fiscal year 2017 is 
$7,310,000. This budget includes support for the Payroll System at 
$3,410,000, funding to support the Secretary of the Senate for contract 
maintenance of the Financial Management Information System (FMIS) at 
$2,862,000, and maintenance and necessary enhancements to the 
Legislative Information System at $1,038,000.

    Senator Capito. Thank you. Chief Dine.
                                ------                                


                      UNITED STATES CAPITOL POLICE

STATEMENT OF HON. CHIEF KIM C. DINE
ACCOMPANIED BY:
        MATTHEW VERDEROSA, ASSISTANT CHIEF
        RICHARD BRADDOCK, CHIEF ADMINISTRATIVE OFFICER
        FAY ROPELLA, INSPECTOR GENERAL
    Chief Dine. Chairman Capito, Ranking Member Schatz, and 
members of the subcommittee, I am honored to be here today, and 
I appreciate the opportunity to present the United States 
Capitol Police budget request for fiscal year 2017.
    Before I begin, I would like to note that my full testimony 
outlining the Department's request has been submitted for the 
record.
    I am joined here today by Assistant Chief Matthew 
Verderosa, our Chief of Operations, and soon to be our new 
Chief, as well as Mr. Richard Braddock, our Chief 
Administrative Officer, as well as some members of my executive 
management team, and our Inspector General, Fay Ropella.
    First, I would like to thank the subcommittee for its 
sustained and unwavering support of the United States Capitol 
Police. I would specifically like to express our appreciation 
to the subcommittee and the Congress for providing the 
necessary salaries and general expenses funding for fiscal year 
2016 to support our personnel and operations.
    The women and men of the Capitol Police work tirelessly to 
ensure that the legislative process of our government functions 
without disruption or lapses in security and safety 24 hours a 
day, 365 days a year, but none of this would be possible 
without your support and that of the Capitol Police Board.
    The Department's fiscal year 2017 request totals nearly 
$410 million and represents an overall increase of nearly $35 
million and 9 percent over the fiscal year 2016 enacted budget 
level of $375 million.
    The Department's fiscal year 2017 personnel request 
reflects our continuous efforts at all levels of management to 
effectively and prudently manage our existing resources to 
achieve the best possible balance of staff versus overtime to 
meet mission requirements.
    We are constantly analyzing our workforce to align job 
functions, assignments, workload, risk management, and 
organizational readiness, along with the ever changing 
assessments of mandatory mission requirements within a dynamic 
environment.
    Our fiscal year 2017 request includes base funding for 
1,823 sworn and 373 civilian positions. These are the staffing 
levels funded during fiscal year 2016. In addition, the request 
also includes half year funding for an additional 72 officers 
and 51 civilians.
    With the rise of ISIL and the continued efforts of al-Qaeda 
and other terrorist organizations to attack public venues as 
well as the increased occurrences of homegrown violent 
extremists, lone wolf episodes, we have seen a rise in the 
number of mass casualty events around the world and in the 
continental United States.
    Based on this rise in terrorist events and the tactics 
displayed by these assailants, the United States Capitol Police 
once again reviewed its operational tactical posture to ensure 
that the Department is taking every measure possible to 
maintain the security of the Capitol complex, while allowing 
the legislative process to continue to function in an open 
environment.
    In close coordination with the Capitol Police Board, the 
Department believes that the implementation of security 
measures to better secure screening within the House garages 
with full implementation of additional screening and pre-
screening of various building access points, and the 
implementation of enhanced screening portals is necessary.
    Before requesting additional sworn personnel, the 
Department looked at its current mission load and worked 
closely with the Capitol Police Board on areas to modify or 
eliminate mission requirements in order to offset new mission 
requirements.
    Additionally, the Department has reviewed duties currently 
performed by officers that could be civilianized in order to 
repurpose current officers to better meet operational 
adjustments. Funding for 48 new civilian positions requested 
will be utilized for this civilianization process, and the 
funding for three new civilian positions will support the 
increasing physical security infrastructure.
    The funding requests represent an overall increase of 
approximately 8 percent over the fiscal year 2016 Salaries 
enacted level, which includes funding for the 2017 Presidential 
Inauguration, natural salary increases, additional staffing 
requirements, and increased overtime, since the Department's 
current sworn staffing levels do not entirely provide necessary 
resources to meet all of our mission requirements.
    The second area I want to cover in some detail is our 
requested General Expenses budget, which includes protective 
travel, hiring, outfitting and training of new sworn personnel, 
supplies and equipment, management systems, non-personnel 
Presidential Inauguration support, and other non-personnel 
needs.
    We are requesting $76 million for general expenses, which 
is an increase of $10 million over the fiscal year 2016 enacted 
level. The increase results from normal increases in operating 
costs, Inauguration costs, costs to train, recruit, and outfit 
the new employees previously mentioned; the cost of life-cycle 
key items and routine equipment and systems, and the 
restoration of annual levels reduced in previous fiscal years 
to meet regular department needs.
    The request also includes an additional requirement to 
equip a fully functional alternate command center.
    In closing, I am very grateful for your time today. As you 
know and as you stated, this is the last time I will appear 
before you representing this great organization.
    I have had the distinct pleasure of serving as Chief of 
Police for the United States Capitol Police through, as you 
know, one Inauguration, four State of the Union addresses, six 
joint meetings of Congress, the African Summit, which is a 
historical event involving our 50 heads of State at the 
Capitol, over 30 million screenings, over 600 demonstrations, 
the rollout of a new strategic plan, the achievement of 
receiving the gold standard accreditation from the Commission 
on Accreditation in Law Enforcement, the implementation of a 
new digital encrypted radio system, the creation of a field 
commander program, implementation of the new field training 
program for new officers, the completion of active shooter 
training for the entire department, a new hiring process for 
recruits that has resulted in over 20,000 applications for the 
last 3 years to join the USCP, the hiring of a labor relations 
specialist to maximize labor/management relations, the hiring 
of a new Chief Information Officer, a new Diversity Officer, 
and a new Communications Director, and lastly, the 
implementation of a new communications strategy to better 
communicate with you and the greater congressional community.
    All of this has been a possibility because of your support 
and the excellent work by the women and men of the Capitol 
Police.
    I would like to make a special note of the fact that all of 
this was done over these years while keeping the congressional 
community safe.
    So, I would like to thank the women and men of the USCP for 
their commitment to our mission and their unwavering dedication 
every day to ensuring the safety and security of members, 
staff, and the many visitors who come to the Capitol to see our 
great democracy in action.
    Thank you for the opportunity to appear before you today, 
and I would be pleased to answer any questions you may have at 
this time.
    [The statement follows:]
                 Prepared Statement of Hon. Kim C. Dine
    Chairman Capito, Ranking Member Schatz and members of the 
subcommittee, I am honored to be here today, and I appreciate the 
opportunity to present the United States Capitol Police budget request 
for fiscal year 2017. I am joined here today by Assistant Chief Matthew 
Verderosa, our Chief of Operations, and Mr. Richard Braddock, our Chief 
Administrative Officer, as well as some of the members of my Executive 
Management Team and our Inspector General.
    First, I would like to thank the subcommittee for its sustained and 
unwavering support of the United States Capitol Police. I would 
specifically like to express our appreciation to the subcommittee and 
the Congress for providing the necessary salaries and general expenses 
funding for fiscal year 2016 to support our personnel and operations. 
The women and men of the Capitol Police work tirelessly to ensure that 
the legislative process of our Government functions without disruption 
or lapses in security or safety 24 hours a day, 365 days a year. But 
none of this would be possible without your support and that of the 
Capitol Police Board.
    My management team and I are very proud of the close partnership 
that has evolved between us to make this possible. Your confidence in 
us, and the support you have provided to the Capitol Police over the 
years, has undeniably been a remarkable contributor to our success in 
achieving our mission. You and your staff have taken great time and 
made significant efforts to work closely with the Department's 
leadership team and we are truly grateful for your keen understanding 
of the complexity of our mission and the challenges we face.
    While our mission has not changed, the scope of the threats that we 
face is changing--and the ways in which we must continue to adapt to 
those threats has to change. We will continue to meet our mission by 
adapting and improving our capabilities while remaining true to our 
core values. Our ability to thwart attacks and safeguard the Capitol 
Complex hinges on our flexibility to efficiently adapt operational and 
administrative capabilities to the ever-changing environment.
    Before I begin the specifics of the Department's fiscal year 2017 
budget request, I would like to express again our appreciation to the 
subcommittee and the Congress for providing the essential salaries and 
general expenses funding for fiscal year 2016 to support our personnel 
and operations, which has ensured a high-level of capability and 
mission readiness. Since we last met, the USCP has been proud to 
support four Joint Meetings of Congress, which included addresses from 
the Prime Minister of Israel, Benjamin Netanyahu, the President of the 
Islamic Republic of Afghanistan, Ashraf Ghani, the Prime Minister of 
Japan, Shinzo Abe, and His Holiness Pope Francis of the Holy See.
    During fiscal year 2015, we published and began the implementation 
of the USCP Strategic Plan--fiscal year 2015-2019. I, along with my 
management team worked to communicate the importance of this effort 
through a variety of efforts across various media, including videos, 
electronic messages, training for USCP employees (including new recruit 
officers) and face to face discussions at roll-calls, across all three 
shifts.
    These efforts were meant to communicate the importance of our 
Strategic Plan as well as to answer any questions USCP employees might 
have relating to ongoing efforts to improve organizational 
effectiveness in the accomplishment of agency goals and our mission. We 
identified a vision for the future, articulated the USCP's Core Values, 
established transformational priorities and laid out a path for 
continuous improvement and adaptation. This effort identified strategic 
mission stances, lines of business, and led to the development of 
purpose statements for all USCP programs and functions. To support 
these efforts, Strategic Working Groups have been convened led by USCP 
executive managers and senior staff to assist with addressing key 
transformational priorities outlined in the Strategic Plan.
    During fiscal year 2015, we began the process of identifying and 
establishing key performance indicators, measures, and a formal process 
for monitoring program performance. This provides the foundation for 
the Department to continue to improve our programs and functions to 
meet Congress' expectations and our mission both today and tomorrow.
    I was proud to discuss last year that the Department was awarded 
the Gold Standard from the Commission on Accreditation for Law 
Enforcement Agencies. This is the highest rating that a law enforcement 
agency can receive, and is reserved for organizations that exhibit 
strong organizational health. Efforts continue to ensure that we are 
prepared for our next accreditation which will occur in fiscal year 
2017. We continue to refine our programs and functions and participate 
in mock assessments and work within our region with peer law 
enforcement agencies to share best practices and lessons learned.
    Our fiscal year 2017 mission-focused request is grounded in the 
framework of our Strategic Plan. To achieve our vision as a nationally 
recognized results-oriented law enforcement organization, the 
Department continues to reinforce a culture that supports effective 
planning, performance management, communication, accountability, and 
employee empowerment. We are currently developing the internal 
framework to employ smart policing by taking a results-oriented, data-
driven approach that effectively meets current and future threats and 
challenges. Further, we will continue to deliver safety and security by 
deploying effective law enforcement services through collaboration, 
adaptability and innovation. It is the Department's position that we 
will achieve organizational excellence by promoting accountability 
through employee engagement and a positive work environment, as well as 
maximizing our effectiveness through the adoption and implementation of 
best practices.
    At this time, I would like to offer the subcommittee an overarching 
summary of our fiscal year 2017 request. I will follow this summary 
with a discussion of specific budget items of particular significance 
to you and the Department.
    The Department's fiscal year 2017 request totals nearly $410 
million and represents an overall increase of nearly $35 million or 9 
percent over the fiscal year 2016 enacted funding level of $375 
million.
    As with other law enforcement agencies, personnel salaries and 
overtime represent the majority of our budget each year. As you know, 
we are a service organization, and we need dedicated and trained 
professionals to provide that service.
    The Department's fiscal year 2017 personnel request reflects our 
continuous efforts at all levels of management to effectively and 
prudently manage our existing resources to achieve the best possible 
balance of staff versus overtime to meet mission requirements. We are 
constantly analyzing our workforce to align job functions, assignments, 
workload, risk management, and organizational readiness, along with the 
ever-changing threat assessments and mandatory mission requirements, 
within a dynamic environment.
    Our fiscal year 2017 request includes base funding for 1,823 sworn 
and 373 civilian positions. These are the staffing levels funded during 
fiscal year 2016. In addition, the request also includes half year 
funding for an additional 72 sworn officers and 51 civilians.
    With the rise of ISIL, the continued efforts of Al Qaida and other 
terrorist organizations to attack public venues, as well as increased 
occurrences of homegrown violent extremist ``lone wolf'' episodes, we 
have seen a rise in the number of mass causality events around the 
world and in the continental United States. Based on this rise in 
terrorist events and the tactics displayed by the assailants, the 
United States Capitol Police have once again reviewed its operational 
and tactical posture to insure that the Department is taking every 
measure possible to maintain the security of the Capitol Complex, while 
allowing the legislative process to continue to function in an open 
environment. In close coordination with the Capitol Police Board, the 
Department believes that additional screening of various means must be 
used. These include the implementation of security measures to better 
secure and screen within the House garages, the full implementation of 
additional screening and pre-screening at various building access 
points, and the implementation of enhanced screening portals. The 
additional sworn personnel are meant to enhance the Department's 
ability to detect, impede and address threats and risks that currently 
exist and that continue to evolve.
    Before requesting additional sworn personnel, the Department looked 
at its current mission load and worked closely with the Capitol Police 
Board on areas to modify or eliminate mission requirements in order to 
offset new mission requirements. Additionally, the Department has 
reviewed duties currently performed by officers that could be 
civilianized in order to repurpose current officers to better meet 
operational requirements. Funding for 48 new civilian positions 
requested will be utilized for this civilianization process and funding 
for 3 new civilian positions will support the increasing physical 
security infrastructure. The funding request represents an overall 
increase of approximately 8 percent percent over the fiscal year 2016 
Salaries enacted level. This increase is necessary to addresses the 
natural salary increases incurred by the Department, additional 
staffing requirements and increased overtime costs to meet our needs, 
especially for the 2017 presidential inauguration.
    As you are aware, the Department's current sworn staffing levels do 
not entirely provide the necessary resources to meet all our mission 
requirements within the established sworn officer utility or the number 
of work-hours in a year that each officer is available to perform work. 
This utility number is used to determine overall staffing requirements, 
and balances the utility of available staff with annual salary and 
overtime funding along with known mission requirements such as post 
coverage, projected unscheduled events such as demonstrations, late 
sessions and holiday concerts, and unfunded requirements that occur 
after the budget is enacted, such as unforeseen critical emergency 
situations. Because of the need to fill the mission requirement gap 
through overtime, the Department has struggled to pull our sworn 
personnel offline to conduct training. In order to achieve mandatory 
training, we must utilize overtime to ensure that the officers may be 
offline for training, while meeting our daily mission requirements. 
There are flexibilities in other law enforcement agencies in offsetting 
or deferring daily requirements to allow for training that our unique 
mission does not afford.
    Thus, mission requirements in excess of available personnel must be 
addressed through the identification of efficiencies such as post 
realignment and/or reductions, technology, and cutbacks within the 
utility. Where necessary, we meet this requirement through the use of 
overtime. The Department is currently in the process of implementing an 
automated scheduling system to improve efficiency through information-
based management. Once fully implemented, this will result in 
enhancements to a number of policies and procedures that have a direct 
and indirect impact on our overtime needs. At the requested funded 
staffing levels, the Department's fiscal year 2017 overtime projection 
is approximately $35 million. This amount will cover base mission 
requirements, the inauguration, our support of non-reimbursable events 
at the Library of Congress and the ability for sworn employees to be 
backfilled while they attend necessary and/or mandatory training.
    The second area I want to cover in some detail is our requested 
general expenses budget, which includes protective travel; hiring, 
outfitting, and training new sworn personnel; supplies and equipment; 
management systems; non-personnel presidential inauguration support and 
other non-personnel needs. We are requesting $76 million for general 
expenses, which is an increase of $10 million over the fiscal year 2016 
enacted level. The increase results from normal increases in operating 
costs, inauguration cost, cost to train, recruit and outfit the new 
employees previously mentioned, the cost to life cycle key items and 
routine equipment and systems, and the restoration of annual levels 
reduced in previous fiscal years to meet regular Department needs. The 
request also includes an additional requirement to equip a fully 
functional Alternate Command Center at a cost of $1.6 million. If the 
current Command Center at USCP Headquarters cannot be utilized due to 
power or access issues, a room at another building, with very limited 
equipment is the only other solution at this time. The proposed 
Alternate Command Center would include back-up power, emergency 
notifications systems, connectivity to the House, Senate and USCP 
messaging systems, secure communications, campus and airspace 
monitoring ability and stations for the commanders to conduct command 
and control oversight functions and to ensure stakeholders are 
continuously provided situational awareness.
    With resources provided to the Department, our officers provide a 
safe environment for the facilities of Capitol Hill. For the U.S. 
Capitol Building alone, we provided a secure and open environment for 
well over 1.5 million square feet, over 600 rooms, approximately 850 
doorways, and miles of corridors; which speaks to the vast magnitude of 
our mission and how our ability to remain agile and prepared to respond 
is key to the accomplishment of our mission. In fiscal year 2015, the 
Department performed over 8.9 million screenings of people entering 
congressional buildings (including over 1.5 million visitors to the 
Capitol Visitor Center). Outside the buildings we kept the Capitol 
grounds safe by conducting more than 132,000 K-9 vehicle sweeps and 
nearly 33,000 offsite vehicle inspections.
    For the sixth year in a row, the Department has implemented uniform 
procedures to effectively measure and justify USCP planning, program, 
and resource requirements through a comprehensive, standardized, and 
repeatable management process, which we call the ``Force Development 
Business Process.'' It provides for a transparent decisionmaking 
process, including reviews and approvals by an Investment Review Board 
made up of key agency management, and provides a structure that is 
results-driven and based on meeting operational needs. In addition, to 
ensure the accuracy of our budget request, our fiscal year 2017 budget 
went through multiple layers of review and validation, and is traceable 
to supporting documentation for each budget element.
    Further, we continue our work to close audit recommendations and to 
address our material weaknesses from prior audits by working closely 
with our Inspector General and the Government Accountability Office to 
address identified issues and by providing the evidence necessary to 
close findings. In particular, I am pleased to report that the 
Department received a fifth consecutive unqualified ``clean'' opinion 
on our financial statements. Also in fiscal year 2015, we have worked 
closely with the Office of Inspector General to close 29 
recommendations and have closed another 12 recommendations so far in 
fiscal year 2016. Additionally, we are working on the resolution of a 
number of other recommendations in order to achieve greater efficiency 
and effectiveness with our administrative programs. The long-term 
resolution of recommendations related to internal controls, business 
processes and material weaknesses remains of the highest importance to 
our management team.
    In closing, I am grateful for your time today. The United States 
Capitol Police will continue to work closely with you to ensure that we 
meet the needs of the Congress and our mission in a reasonable and 
responsible manner. And lastly, I would like to thank the women and men 
of the USCP for their commitment to our mission and their unwavering 
dedication every day to ensuring the safety and security of Members, 
staff, and the many visitors who come to the Capitol to see our great 
democracy is action. It is truly inspiring.
    Thank you for the opportunity to appear before you today and I 
would be pleased to answer any questions that you may have at this 
time.

                  SPENDING PLAN FOR ENHANCED SECURITY

    Senator Capito. Thank you both. Welcome to Senator Murphy 
for joining us. I am going to begin the questions, and I think 
since both Senator Schatz and I raised the same question about 
the strategic plan for the $4 million that we requested and we 
just received this on Friday and today is Tuesday.
    This deals with the extra $4 million that was provided at 
your request into the budget. This is really for both of you. I 
guess the first question I would ask is I noticed in the caveat 
in the report language, it said ``None of these funds will be 
made available until this plan was provided.'' I guess my 
question is I assume none of the $4 million has been spent as 
yet? Do either one of you have an answer to that?
    Chief Dine. No, it has not. Every year as part of our force 
development process we go through a whole threat analysis 
process. This is essentially part of the zero base budget 
process to analyze the budget, the functions, and the tasks 
that need to be performed. A big part of that process is the 
internal threat assessment.
    As you well know by now, we are very connected and plugged 
in to the intelligence community. As Mr. Larkin mentioned, the 
level of threats internationally and nationally, have been on 
the rise. The concern that we all have is now in open source. 
There is less information now about threats, both nationally 
and internationally, than there have been in the past. Many 
organizations are operating more in the dark than they had 
been. But what we do know is there has been an increase both 
nationally and internationally. Just between March 2014 and 
August 2015, over 60 United States citizens have been arrested 
for providing material support or trying to join ISIL. That is 
just one example. Since 9/11, nationally, there have been 144 
terrorist plots in the United States involving homegrown 
violent extremists, but 85 percent of those have occurred since 
2009. Whether it is those kinds of threats, international 
threats from more formal groups, or lone offenders, our goal is 
to keep the United States Capitol and the legislative process 
safe.
    We conduct an internal review process, and at the same 
time, we work very close with the Capitol Police Board and the 
members of the board and their individual stakeholders whom 
they serve as well.
    We came up collectively with three priorities.
    Senator Capito. In this plan?
    Chief Dine. Yes, ma'am. One is to have pre-screeners at 
outside entrances in an optimal way. That would be the most 
optimal use of people. As you know, we have screeners at every 
exit and pretty much everywhere. Frankly, the key is to keep 
the fight outside the buildings and take people outside the 
buildings, and identify threats before they get inside a 
building. That is one of the priorities.
    The other two priorities were screening House garages, 
which has been a long-term vulnerability over the years, and 
increased screening portals for the Chambers. Working with the 
Capitol Police Board, as well as in context with our own force 
development process, those three priorities were identified. 
The $4 million then would be used to start to implement all of 
those processes over a multi-year plan.
    Senator Capito. Okay. Let me ask a quick follow-up to that. 
If the $4 million, which is to hire another 48 officers to take 
care of the pre-screening and additional screening in the 
garages, et cetera, you are obviously anticipating this is 
going to be an ongoing expense. I am going to assume you built 
this into your budget request for this coming year.
    You are then asking for another 72, I think, additional 
officers and more civilians. Quickly, is that to perform the 
tasks that are outlined in the plan?
    Chief Dine. Yes, ma'am, you are exactly right. This is sort 
of an iterative or step-by-step process that will not take 
place all at once, but once it does become implemented, it will 
theoretically be in perpetuity. You are right, there is a cost 
associated with that.
    Senator Capito. Right.
    Chief Dine. The initial 48, 22 of those would be detailed 
to the House Division to work on the garage security, and then 
26 others that would be implemented to use as----
    Senator Capito. Have any of those been hired as yet?
    Chief Dine. We have three classes in process as we speak 
that are signed up.
    Senator Capito. The classes are filled, so you have the 
candidates?
    Chief Dine. Yes, ma'am. We need 18 right now to institute 
the Ford House Building and Longworth House Office Building 
garage security, and then next year, as you mentioned, for 
fiscal year 2017, we are asking for 72 sworn and 48 civilians.
    That is part of what we view as an aggressive and creative 
effort to make best use of the resources we have. We have a 
couple of key areas within the police department where we 
currently have officers doing an outstanding job in those 
positions, but we believe they could be civilianized, and then 
we can use them in other capacities. Those new civilian hires 
would replace some of those officers.
    Senator Capito. Let me just get to the core and then I will 
let Senator Schatz begin some questioning. So, the way I am 
seeing this, and I heard in your statement that you offset new 
missions by removing some older missions, you are asking for 
continued growth of the force.
    I appreciate the difficulties of your job, and I am one of 
the beneficiaries of the great job that you do and all your 
officers do.
    But we have to make this sustainable within the mission 
described by the Capitol Police Board, and with, of course, the 
Capitol Police being the lead agency here, trying to figure out 
are we going to complete the mission within the resources 
available.
    I think some of this could become unsustainable in terms of 
the increased hiring if we are not doing what you said in your 
statement, which is to offset new missions by removing some of 
the missions that are no longer maybe as vital.

         ROLE OF CANINE DIVISION IN THE ENHANCED SECURITY PLAN

    I am going to go to one other question and ask you a real 
easy question here. I went out to the canine training center. I 
also saw the off-site screening center for trucks, et cetera. I 
think they do a terrific job, very fascinating work, I think, 
with the canines, and we really appreciate it as we go up to 
the Capitol Plaza and other places. It is an interesting 
phenomenon in law enforcement. I know it is not new. It is 
still kind of interesting to watch.
    They were mentioning there that there is hope that the 
canine force would be expanded in the future for different 
missions possibly. Is that part of your budget here? I want to 
say that Deputy Chief Rogers was very detailed in his 
explanations of what goes on.
    Chief Dine. They do a great job. They are an integral part 
of our security posture and a great tool that we use in our 
multi-layered approach to keep the campus safe.
    We would hope to continue to build that program, and also 
replace attrition----
    Senator Capito. Right, is that part of your budget for next 
year, growing it, or keeping it at static?
    Chief Dine. We hope to grow it, and I would also mention--
let me back up. I should state for the record the obvious fact 
that we appreciate the support that you give us and we will 
always make the best use of whatever resources you provide to 
us, what we all obviously are trying to do is continue to raise 
the bar of the level of security that we provide to you. 
Regardless of what we get, we will make the best of that and 
provide the best security possible.
    That being said, that is how we came up with these three 
priorities. I would also say that some of the efforts are not 
totally mutually exclusive. For instance, the person I 
identified as a pre-screener could theoretically also be a K-9 
officer.
    Senator Capito. I am going to let Senator Schatz go, and 
then we will go back and forth.

           TIMELINESS OF THE ENHANCED SECURITY SPENDING PLAN

    Senator Schatz. Thank you, Chairman Capito. Mr. Larkin, in 
as plain language as possible, tell me why was this information 
in terms of the spend plan so late.
    Mr. Larkin. I have to carry over on what the Chief was 
outlining. As we are assessing the threat environment and 
looking at vulnerabilities on this campus, we are looking at 
moving multiple chess pieces around in order to gain the 
greatest efficiencies for our limited manpower.
    With that effort, we had some innovative ideas on how we 
could move some of those personnel around, not all of them made 
it through the pipe, just because some of the areas that we 
were looking to potentially utilize personnel, for instance, 
that may have been on a limited duty status, where we could 
have applied them, and then taken the officer who was at that 
post and move them to more of a proactive position that the 
Chief alluded to.
    Analysis of potential restructuring of personnel indicated 
the ability to shift one or two officers to manage the costs 
associated with the Chief's plans.
    Senator Schatz. So, it is not that you were done and not 
sharing it with the subcommittee. It was that you were actually 
going through a process as sort of a result of--I will not call 
it a ``windfall,'' but unexpected resources being made 
available, and you wanted to make wise choices with that. Is 
that what you are saying happened?
    Mr. Larkin. Absolutely, so that we could come to you with a 
solid business plan including justification on why we need 
these officers, and how they will be utilized. Again, I would 
ask to provide some of that justification in a closed door 
session.
    Senator Schatz. Sure. On a going forward basis, however, 
knowing that we are going to be iterating this over not just 
months but years, can I have your commitment that we are going 
to iterate this together?
    I understand your law enforcement choices should be law 
enforcement choices, but to the degree and extent that we are 
doing oversight, we cannot give our staff 48 hours over a 
weekend to really scrub your plan properly. We get one chance 
at this. This did not feel like sufficient time to vet your 
plan.
    I get you had to go to the Police Board, and I get each 
chamber had to advocate for what they felt was important, and I 
would not want you to rush it in the interest of getting us 
something just to get us something. On the other hand, you 
know, had we known this was going to fall out of the sky a 
couple of days before the hearing, you know, if we are going to 
do this year over year, this is just no way to run a railroad.
    Mr. Larkin. Senator, I completely agree with you, and we 
will concentrate on improving communications. Again, I think it 
was fully an attempt on the Capitol Police Board, which is made 
up of both the House and the Senate Sergeant at Arms, the 
Architect of the Capitol, and the chief of the department, to 
find the most efficient way to apply these resources, as they 
matched the costs of this appropriation.
    In addition, I would like to say, for all these officer and 
civilian positions, there is a lead time. It takes about a year 
to complete the hiring process of advertising, recruitment, 
vetting, training that officer, getting them equipped, getting 
them out with the field training officers, before that officer 
is fully prepared to work, and the civilians possibly not as 
long, but they still have to learn the trade/craft for which 
they are responsible.

                         USCP CELL PHONE POLICY

    Senator Schatz. Right. Chief Dine, new topic for you. Can 
you just tell us what the cell phone policy is as quickly as 
possible?
    Chief Dine. Yes, sir. Officers are allowed to have their 
personal cell phones with them but they are not supposed to use 
them on post. This has been an ongoing issue and challenge for 
us, although I would like to say that I think with our new 
promotions and moving command personnel around and clear 
direction, we are seeing less of it. Hopefully, you are seeing 
less of it.
    Senator Schatz. Are you keeping data on this? I am just 
wondering how we know whether we are making progress in terms 
of compliance with the policy.
    Chief Dine. All the discipline is tracked, and it appears 
to me that we are getting more compliance. It is an interesting 
challenge because as you probably know, there are departments 
around the country that actually give their officers electronic 
devices so they can better share intelligence information and 
other information with them, but because of the uniqueness of 
our department and the fact that they have to be on task, they 
essentially would not be able to look at that kind of device or 
information unless they were on a break.
    The challenge is controlling use of the phone, which I 
think we are doing a better job of, but we will----
    Senator Schatz. I think you are doing a better job, too, 
but I will also say that we are still climbing that hill as a 
community, and I think it is human nature. We are all checking 
our cell phones inappropriately. They are people. You know, I 
do not think there is any reason to be overly harsh about this, 
but I do think this is a question of training and 
professionalism, and I am just hoping we can continue to make 
progress on that.
    I will save my additional questions for the second round.
    Chief Dine. Yes, sir. You have my commitment to that, and I 
will speak for Assistant Chief Verderosa, soon to be Chief 
Verderosa, that we will continue that effort. We also talk to 
the officers all the time about a sense of tactical readiness 
and appearance on the posts. The more confident they look and 
appear to everyone, the safer the whole campus will be.
    Senator Capito. Thank you. Mr. Larkin, first of all, I 
really appreciate the fact that you have gone back through your 
budget and tried to make some reductions and offsets. I 
appreciate that, because I know you did that realizing the 
realities of the upcoming budget.
    You did make some reductions, and I guess my question would 
be do you foresee these are one time reductions, permanent 
reductions, and how could they be sustained in the out years? 
Do you see that as a problem?
    Mr. Larkin. Chairman, I do not see it as a problem. I think 
that we can handle our reductions. We are constantly looking 
within our organization to increase efficiencies.
    The subcommittee has been cooperative in working with us on 
how we can reinvest any savings so we can buy down some of our 
security costs, as we are challenged with them, especially in 
the no notice type situation.
    We also have an evolution of technology. We do not look to 
bump people out of jobs, but as a result of that evolution, 
when people retire, or move on to other opportunities, we do 
not necessarily need to fill their positions.
    So, each one of my leaders, on a weekly basis, are given 
the license and the direction to look within their 
organizations and not just replace somebody one for one if they 
should leave. We take a hard look at our business operations to 
ensure that we are using our resources efficiently.
    I am comfortable that we can do this, reduce costs and 
maintain service levels over time.
    Senator Capito. Thank you. Good. You also have an increase 
of $1.65 million for member office constituent mail service. Is 
that the computer system that many of our offices use to track 
our constituents, like the IQ? Is that what this is an increase 
for?
    Mr. Larkin. The current funding level does not fully fund 
the Constituent Services System (CSS) Senators use to respond 
to their constituents. Member offices must use Economic 
Allocation Funding (EAF) and Official Office Funds to cover 
that deficit which can then lead to problems in other areas of 
their budgets. The increase of $1.6 million will allow us to 
fully fund the CSS allocations set by the Rules Committee.
    Senator Capito. So, this is basically for safety issues, 
for safety and security issues mostly?
    Mr. Larkin. Additionally, a new CSS contract will become 
effective in July 2016. It includes enhanced security 
requirements and additional functional requirements requested 
by the Senate community which will add to our costs, which are 
covered by the $1.6 million increase.
    Senator Capito. Right.
    Senator Capito. Okay. I am just going to make a comment on 
your request for $2.6 million, upgrades to the Senate recording 
studio equipment. I have been to the Senate recording studio. 
They do a wonderful job. I cannot imagine anything they might 
possibly need. It looks so well equipped to me. I am going to 
leave that as my editorial comment, unless you want to 
enlighten me as to what--unless they can take 40 years off the 
face.
    Mr. Larkin. It is all about going digital. These cameras 
are 15 years old. The parts for the cameras are no longer being 
made. The updates are necessary to maintain the quality of our 
product.
    Senator Capito. Well, they do a great job there. As I said, 
I understand technology is moving quickly.

                    IMPACT OF A FLAT SALARIES BUDGET

    Chief, I wanted to ask you a question. First of all, do you 
know how many officers you have today? I know you are supposed 
to be up to 1,823. Do you know how many you have today?
    Chief Dine. We have 1,729.
    Senator Capito. You are almost 100 down from where you 
would be from the request, the 48 you got last year would put 
you to 1,823. That is interesting. I know it takes lead time. I 
know you have people leaving and people moving in and out, and 
it takes a while to fill the positions. I understand you have 
four classes coming.
    So, I guess my question is the cost of salaries and 
benefits for personnel increases every year, so much in order 
to maintain the salaries, a funding of $309 million from last 
year, we are going to need $325 million in 2017 due to 
obviously inflationary costs and benefits and all those kinds 
of things.
    If we were to hold the salary funding for fiscal year 2017 
flat, funding the salaries at the 2016 enacted level of $309 
million rather than increasing it, what do you anticipate that 
would do at the 1,729 you are at right now?
    Chief Dine. Yes, ma'am. That would obviously be a 
challenge, and we would have to look at all of the things we do 
across the board to include reductions or elimination of 
mission support to minimum levels. It would impact our 
dignitary protection. It would significantly reduce post 
coverage and our threat validation. It may provide an inability 
for us to deal with some of the things that we do 24 hours a 
day 7 days a week in terms of certain capabilities and 
specialty response capabilities, such as our bomb unit and 
hazardous device staff. It would also impact our life-cycle 
replacement.
    Those are just a list of things. We would literally look 
across the board to posts, staffing, garage security 
initiatives and the initiatives I just talked about, as well as 
the duties we perform every day.
    Senator Capito. Do you anticipate that your budget even at 
these lower levels that you are holding right now is going to 
come in at the $309 million actual spent on salaries?
    Chief Dine. I anticipate that. The challenge that we face, 
as you know, is that we have more tasks than we have officers, 
which is also why overtime is a component of our budget.
    Senator Capito. Right. Yes, there is an increase for 
overtime. I noticed that. I know we have the Inauguration 
coming up, which puts an additional strain on both of your 
budgets.

        CROSS-TRAINING AND ROTATING OFFICERS TO IMPROVE POLICING

    One of the things that we talked about last year was cross 
training and shifting officers from position to position, and 
maybe looking--I think actually Mr. Larkin mentioned or maybe 
you mentioned, Chief, where you could use civilians instead of 
officers to perform certain duties.
    You know, is that something you have looked at, rotation of 
your officers, keep them fresh, obviously so you can move them 
around in terms of when you have greater or heightened security 
in a certain area, during special times?
    Chief Dine. Yes, ma'am.
    Senator Capito. Have you made an effort in that over the 
last year?
    Chief Dine. We have. We made a great effort. I think you 
saw after some of these national and international events 
hopefully an increased nimbleness on our part, and the ability 
to increase areas to improve visibility around the campus after 
those events.
    We are looking at rotational plans across the board to keep 
officers fresh and focused. That is, of course, a double-edged 
sword because you want any officer, whether it is a patrol 
officer in a traditional department or an assignment here, to 
be very familiar with their surroundings and familiar with 
members.
    Senator Capito. Right.
    Chief Dine. But you also want to keep them fresh and 
engaged, and lastly, as is built into our multi-year plan, we 
have identified several areas in the Department where we think 
civilianization would be an effective and cost beneficial way 
of doing business.

               BUDGET CAPS AND THE NINE PERCENT INCREASE

    Senator Capito. Thank you. Senator.
    Senator Schatz. Chief Dine, this 9 percent increase 
approved by the Police Board, my question is very basic. When 
the Police Board is contemplating this increase and then 
approving it, is there a conversation about the budget caps?
    Chief Dine. Well, we talk about the budget as a whole. We 
talk about the costs. We talk about what we are trying to 
implement and the priorities of the implementation of those 
plans.
    Senator Schatz. I think I am taking that as a no, which is 
to say that I think--Mr. Larkin, if you want to weigh in--it 
just sounds like, appropriately so, operationally oriented and 
talking sort of from a resource standpoint, what is the need 
here, but it does not sound like you are talking about the 
budget environment in which we are currently operating.
    Mr. Larkin. We absolutely respect the budget environment 
that we are operating in. We develop our budget based on the 
current and potential threats, along with the vulnerabilities 
that we are being challenged with.
    I do not think they would stand the test if we did not ask 
for something because we did not think we could get it.
    Senator Schatz. Even the Department of Defense comes in and 
makes requests based on the actual budget.
    Mr. Larkin. That is exactly right.
    Senator Schatz. You are making a 9 percent increase request 
under flat caps.
    Mr. Larkin. So, much of this is to get the discussion 
going, which you alluded to earlier.
    Senator Schatz. Well, here we are.
    Mr. Larkin. Right. So, it is to be able to justify why we 
need these enhancements in order to better protect this campus, 
but we cannot come to you with that request unless we have 
effectively put the bar on our own processes, our own manpower, 
to see where we can yield, whether it is two officers or three 
officers, it reduces the pressure when asking for more 
officers.
    The other thing that we are challenged with is that every 
year we get multiple requests to open up additional doors. 
Every time we open up a door, it adds another vulnerability to 
our security. That does not come without a cost. A cost of 
manpower, a cost of equipment.
    The Department is very good at doing this. They look at the 
statistical throughput on the use of those doors, and you would 
be surprised what doors we have open at certain times that get 
very little throughput.
    Senator Schatz. Yes, absolutely. Look, I think the Police 
Board is doing its job. It is just to the extent that we are 
doing our job, we have to understand what it means to approve a 
9 percent increase, because really what you are doing is 
approving a recommendation to go to authorizers and 
appropriators, which is, as I said, everybody is playing their 
role here.
    I would not expect you to ask for anything less than that 
which would keep the public, the members and the staff safe, 
but just for clarification, I wanted to understand--well, I 
wanted to understand that the board understands what they are 
doing and what they are not doing. They are not appropriating 
money. They are not really authorizing money. They are 
requesting to the Legislative Branch that we do our job.
    I am going to end on hopefully a more encouraging note. I 
have read the report regarding the preparation for the 
potential threat that drones may pose. This is only going to 
grow, and this is not to say that we are safe from the delivery 
of something quite dangerous via drone, not just on this campus 
but across the country.
    So, it is not time to relax, but I am satisfied that you 
are working on it in the interagency manner that will get us to 
the right place, and you have an unique security environment.
    You have articulated this to me, both of you, about the 
need to keep the United States Capitol as an open campus for 
millions of people from across the country and the world to see 
the United States and to enjoy understanding our system of 
government.
    Yet, we have this new potential threat, and one Gyrocopter 
thing--you know, it was almost too goofy because it did not 
seem serious. You know, it was a funny story. It was sort of 
interesting to drill down into, but it may have distracted us 
from the very real threat that these drones, both sort of 
professional grade drones and toys, could potentially cause.
    So, I just wanted to encourage you to continue that good 
work, but do not let up.
    Mr. Larkin. Senator, point well taken. We did not take it 
as a source of entertainment. As you know, we have been very 
deep in this and we will continue to go deeper in order to stay 
ahead of this evolving technology.
    Senator Schatz. Thank you.

                      ROBOTIC EQUIPMENT AND DRONES

    Senator Capito. I have a couple more questions on that 
line. I think there was a robot that was deployed to make sure 
there was not a bomb and those kinds of things. What is the 
robotic equipment? I guess it has to be replaced. What is the 
normal life cycle of something like this? How long have we had 
it? Is this a scenario where we need an increase? Mr. Larkin, 
or whoever wants to answer that.
    Chief Dine. I can start first to address the drones. Thank 
you very much. We are actually very proud of the leadership 
position that we have taken in the National Capital Region. 
Every day, we work with our partners in areas of operations, 
tactics, and the technology as it relates to combatting that 
threat.
    We have taken a leadership approach in the region. We have 
attended multiple meetings, but we also held meetings ourselves 
to make sure that not only we were on the right track, but 
agencies around the National Capital Region were on the right 
track tactically as well.
    Our Containment Emergency Response Team, which is our 
version of a SWAT team, works and meets with all the other 
teams as well in the area to aggressively look at technology. 
We actually trained our entire Department on drone type 
incidents because we constantly deal with the lessons learned.
    We made that formal training available to other 
departments, such as the Park Police, who then utilized that 
training. The training that we created is now provided at 
FLETC, the Federal Law Enforcement Training Center in Georgia. 
The training our folks created is being used nationally as it 
relates to that challenge. We appreciate you noting that, and 
we will definitely stay abreast of this issue.
    We use our robots for things like suspicious packages. We 
have four different designs of different sizes. It just 
coincidentally turns out the life-cycle replacement is 
approaching on several of them now. We have different sizes and 
different capabilities based on the situation. We used one of 
them during the gyro incident, which, for the record, should be 
noted worked out well. No one was hurt. Our officers acted 
properly and heroically and made an arrest immediately, and the 
robot was effectively utilized.
    Also, if you recall last summer, we used a robot during one 
of the concerts when a pressure cooker was found in a vehicle 
close to the Capitol.
    They are very effective tools. What we do not want to do, 
if at all possible, is send an officer to handle a dangerous 
object when we can use technology, which is where these robots 
of different sizes come into play.
    The life cycle is usually about 8 to 10 years, to answer 
the last part of your question.
    Senator Capito. Okay. Do you have anything to add?
    Mr. Larkin. I think he did a perfect job.

                          SWORN TRAINING HOURS

    Senator Capito. Good answer. Last thing for me, Chief, are 
the training hours that you have planned for fiscal year 2017, 
which is 16 hours for 1,500 officers, are those equal to the 
training hours that you provided this year? Is that pretty 
standard, 16 hours? Is that more, less? How does that pan over 
the last year and then this upcoming budget request?
    Chief Dine. Well, I will say there is never enough 
training. I do not think there is ever any Chief you will find 
that says there is enough training hours. We want to have at 
least core training for key issues. That has been consistent 
with what we have been working to provide.
    It is very, very important. Training, as you know, is the 
last place that any Chief wants to make any cuts. Sadly, with 
many departments around the country, it is often the first 
place that is cut, which is not good for any police operation.
    We are going to continue with that effort. We appreciate 
greatly your support for the ability to take officers offline, 
which is one of the challenges we face and is unique to our 
Department, more so than traditional local departments. The 
public might not even realize if officers were taken off the 
street and significantly reduced.
    Because of our fixed posts, and the specific functions that 
we have to engage in, we have to use overtime to take officers 
offline to train, and that is a challenge that many departments 
do not face.
    Senator Capito. Well, just for me and I will turn it back 
over to Senator Schatz if he has additional questions, just in 
my closing kind of thoughts, I think both of us were sort of 
taken aback that we did not receive the explanations that were 
asked for in the appropriations bill in December, in terms of 
the plan, until Friday, as Senator Schatz described, not enough 
time to really digest.
    I think the last things that we want in lean times and 
certainly the last thing you want as well is to feel that any 
agency would say, oh, look what I found, I found $4 million, I 
think I will figure out a plan for it, I think it is better to 
plan ahead, which is what I think you most generally do, but in 
this case, maybe it was a little bit different.
    The other thing I would say without wading into something 
that I understand on this Legislative Branch Subcommittee we 
are only supposed to talk about Senate things, and as a former 
House member, I think the last thing the House wants is a 
Senate member weighing in on any of this, but I would be remiss 
if I did not note that my hope in some of the plans that you 
have--obviously some of them are House specific, House garages.
    I know some of the pre-screening for special events has 
emanated from the House. I noticed the remaining 26 sworn 
officers will be assigned to the Senate and Capitol Divisions.
    I guess what I am sort of reading between the lines there, 
and I hope I am not correct, is are we all on the same page 
here or are we sort of on the same page. In other words, do we 
have an umbrella plan that really is House and Senate working 
together?
    I think that is the best way to use our resources, and I 
think the best way to do the great job that you do for the 
entire campus. It is free flow. Our constituents are moving 
back and forth. We are moving back and forth. You understand 
that. We understand that.
    So, I do not need a comment there. I just wanted to make 
that myself. Thank you.
    All right. Well, this concludes the Legislative Branch 
Appropriations Subcommittee hearing regarding fiscal year 2017 
funding for the Senate Sergeant at Arms and the U.S. Capitol 
Police.
    I want to thank both of you. Again, Chief Dine, we wish you 
very well, and thank you for being here, and always being open 
to our requests.
    Thanks for working out the sledding thing. I am glad we had 
a lot of snow so we could see how it worked, and I know we have 
made some revisions. Way to go.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 7 days allowing 
members to submit statements and/or questions for the record, 
which should be sent to the subcommittee by close of business 
on Tuesday, March 8.
    I would expect that maybe Senator Murphy may have a 
question that he would want a response to, since he was unable 
to return.
    [The following questions were not asked at the hearing, but 
were submitted to the Agencies for response subsequent to the 
hearing:]
               Question Submitted to Hon. Frank J. Larkin
           Question Submitted by Senator Shelley Moore Capito
    Question. I understand that the House Chief Administrative Officer, 
over the last 1 to 2 years, has been actively working on a data center 
consolidation effort due to significant space constraints on Capitol 
Hill. Does the Senate face similar space constraints? Have there been 
any discussions in your office about alternative options for the 
Senate's data center needs?
    Answer. The Senate has vigorously managed our data center on 
Capitol Hill. Efforts over the past several years have allowed us to 
decrease our equipment footprint as well as our power requirements in 
the data center. We have applied the same principles to our alternate 
site as well and are under no space constraints. The Capitol Hill 
location, however, is located in an older building with potential power 
and airflow efficiency issues. Our alternate site is undergoing an 
upgrade by the Architect of the Capitol that is scheduled for 
completion in late 2017, thereby ensuring that those types of issues 
would not be of concern at that location. Our CIO data center working 
group is already researching the possibility of making the alternate 
site our primary site after upgrades are completed as well as looking 
into other potential locations for a new alternate site should the 
primary site need to be relocated.
                                 ______
                                 
                 Question Submitted to Hon Kim C. Dine
            Question Submitted by Senator Christopher Murphy
    Question. In May 2015, a national news story revealed that a 
Capitol Police officer left his weapon unattended in a bathroom; 
underscoring the potential security threat should law enforcement 
firearms fall into the wrong hands. Training, oversight, and discipline 
are obviously critical in preventing such accidents, but technology 
could also play a role in ensuring that if the wrong person gains 
access to a firearm he or she would not be able to use it. In fiscal 
year 2016, the Capitol Police spent over $256,000 on weapons, and has 
requested another $170,000 for weapons and replacement parts in fiscal 
year 2017. Recently, the Obama administration directed the Department 
of Defense, the Department of Justice, and the Department of Homeland 
Security, to the extent practicable and permitted by law, to conduct or 
sponsor research into gun safety technology that would reduce the 
frequency of accidental discharge or unauthorized use of firearms, and 
improve the tracing of lost or stolen guns.
    What additional resources and capabilities would the Capitol Police 
require in order to implement a pilot program for the use of smart gun 
technology by Capitol Police officers, building on the research of the 
executive branch agencies listed above? What are the key challenges you 
foresee in implementing such a program?
    Answer. A smart gun is a firearm that includes safety features that 
allows the weapon to fire when it is activated by an authorized user. 
The safety features can prevent misuse, accidental shootings, gun 
thefts, use of the weapon against the owner and self-harm.
    Smart firearms use several different technologies to distinguish 
between authorized and unauthorized users. These weapons can be 
equipped with radio frequency identification chips or other proximity 
tokens, finger recognition technology (an automated method of verifying 
a match between two people), magnetic rings, or mechanical locks.
    The Department fully agrees that training, oversight, and 
discipline are critical in preventing all firearms incidents. 
Accordingly, we have implemented additional firearm safety training to 
all sworn officers which addressed firearms safety procedures and 
policies. After a review of the smart firearms technology, the 
Department has determined that, at this time, it is not beneficial to 
create a pilot program to begin using these weapons. Smart firearms 
present many safety concerns and challenges for officers that must 
respond quickly to prevent loss of life. With that said, the technology 
is new to the industry and the Department will reevaluate once it is 
further evaluated and reviewed by the industry.

    These weapons are more likely to fail for the following reasons:

  --The technology relies on battery operated devices that can be 
        unreliable;
  --The technology is temperature or moisture-sensitive which can 
        affect the electronics, causing malfunction;
  --The technology requires the officer to wear a watch, bracelet, or 
        other device for the smart features to operate properly;
  --The weapon is not programmed for use by another officer which may 
        be necessary when responding to an incident that may prevent 
        loss of life;
  --Officers will be unable to wear gloves in inclement weather because 
        of the weapon's finger recognition technology.

    Additionally, to implement this new technology, the Department 
would require a costly and extensive training program for all of the 
sworn. This involves researching and validating companies that 
specialize in using these weapons and providing extensive training to 
all officers. Training of this magnitude will require additional 
manpower to remove officers from assigned posts to be thoroughly 
trained on all aspects of the smart firearms technology.
    The Department has determined that smart firearms may be an 
excellent choice for homeowners concerned about accidental discharge. 
However, due to the serious nature of law enforcement, it is imperative 
that officers carry a weapon that is reliable, safe, and malfunctions 
can be resolved immediately. Smart firearms do not provide reliable and 
safe mechanisms because of the complex technology, design and 
construction of the weapon.

                          SUBCOMMITTEE RECESS

    Senator Capito. The next hearing of this subcommittee will 
be on Tuesday, March 8, at 3:00 p.m., in room SD-192, Dirksen 
Senate Office Building. At that time, we will hear testimony 
from the Government Accountability Office and the Congressional 
Budget Office regarding the fiscal year 2017 budget requests 
for those agencies.
    Until then, the subcommittee stands adjourned.
    [Whereupon, at 4:04 p.m., Tuesday, March 1, the 
subcommittee was recessed, to reconvene at 3:00 p.m., Tuesday, 
March 8.]
</pre></body></html>
